Revolving Account Plan Agreement
-----------------------------------------------Santander CashBack 3D Visa Gold®

This document and the terms and conditions of your credit card, disclosed herein in offers through promotional letters, telephone, internet or
any other means constitute your Revolving Account Plan Agreement with Banco Santander Puerto Rico (hereinafter the "Agreement"). The
use of the Credit Card (hereinafter the “Card”) which is issued by Banco Santander Puerto Rico (hereinafter the "Bank") at the request of the
person on behalf of whom the Card is issued (hereinafter the "Holder") shall be governed by the following terms, conditions and clauses:
USE OF THE CARD: The Holder can use the Card to purchase and/or lease goods and services in those establishments where the Card is
accepted and to obtain cash advances from the Bank or any other bank that accepts the Card, subject to those limitations that from time to
time are established by the Bank or the associated Bank to which the Card is presented. Similarly, the Holder may perform balance transfers
subject to the availability of his credit line. As a fraud prevention measure your card will be blocked for use outside of Puerto Rico and United
States. The cardholder will be responsible to notify the Bank by calling Banco en Casa at 787-281-2000 or 1-800-726-8263 prior to traveling
outside of Puerto Rico. This will provide greater security on your transactions and will allow the use of your card abroad, preventing your card
from being blocked. The holder shall owe the Bank the amount charged to his account for using the Card, plus any Interest Charges to be
determined, which will become payable in the legal tender of the United States of America, in its entirely or in monthly installments, in
accordance with the provisions set forth in this Agreement.
CREDIT LIMIT: The initial credit limit granted by the Bank for the Holder’s account will be notified to him upon receipt of the Card. Also, on
each monthly account statement the existing credit limit will appear as of the date of the statement. The Holder agrees that the Bank may
change his credit limit from time to time based on his credit assessment or due to any other legal or contractual reason, including changes in
Bank policies. The Holder may not exceed the credit limit approved by the Bank and in doing so the Bank will have the right to cancel the
Card, require its return or seize it and close the account. Any amount in excess of the limit approved by the Bank shall be paid by the Holder at
sight.
INTEREST CHARGES: The Interest Charges are computed only on the principal balance. The Holder shall pay Interest Charges monthly
on the balance of his account during the billing period, as described below, which will never be higher than the rate established by the
corresponding laws and regulations. The Interest Charges for goods and services and cash advances varies in accordance with the
applicant's (hereinafter “accountholder”) credit score at the time of the credit assessment, which can range from 0.8291% up to 2.1625%
(Periodic Rate), equivalent to an Annual Percentage Rate (APR) ranging from 9.95% up to 25.95%. If the rate disclosed in the offer that was
made to you by Banco Santander Puerto Rico throughout promotional letter, telephone, internet or any other means is different to this, the
Periodic Rate will be computed by dividing the Annual Percentage Rate applicable to your account between twelve (12). An Interest Charge
will be imposed on purchases charged to this account by applying the specified Monthly Periodic Rate to the Average Daily Balance. This
balance is obtained by taking the initial balance for each day in the billing period, subtracting payments and credits and adding the purchases,
except purchases made in billing periods where the opening balance of the period is $0 or the initial balance is paid in full within the period.
Then we add all daily balances within the billing period and divide this total by the number of days within the period. The result is the Average
Daily Balance. No Interest Charges will be imposed for billing periods where there is no previous balance or during which payments and
credits match or exceed the previous balance. With regard to Interest Charges for cash advances, they shall be imposed by applying the
specified Monthly Periodic Rate to the Average Daily Balance as of the date on which the Holder and/or the persons authorized by the Holder
received such cash advances until its total payment.
PENALTY RATE: The Annual Percentage Rate (APR) (including promotional rates) that applies to existing balances as well as new
purchases of goods and services, cash advances and balances transferred to your account, may increase to 29.99% APR if the following
condition occurs:
• The minimum payment on your account is not received for two (2) consecutive billing periods.
Your account will be eligible to return to the regular Annual Percentage Rate (APR) once the account is up to date and you have made six (6)
consecutive minimum payments on or before the corresponding due dates. The Bank shall notify the increase in the penalty rate with no less
than forty-five (45) days prior to the effective date of the increase.
PROMOTIONAL RATES: If the Holder has been granted at a promotional rate (Annual Percentage Rate (APR) applicable to existing
balances, new purchases of goods and services, balance transfers and cash advances charged to your account) the same will be in effect
during the term specified in the offer made by the Bank. However, if the Holder decides to cancel his account before the end of the
promotional rate period, he will lose the benefits of the promotional rate and will be charged at the corresponding regular rate for his account
for the existing balance as of the date of cancelling his Card.
ANNUAL FEE: As user of the Card the Holder undertakes to pay the Bank a non-refundable Annual Fee of $24. Annual fees will be charged
in your first account statement and successively on each anniversary of the issuance date of the Card, when the annual fee charge applies.
When the annual fee do not apply, or is reduced, thus will be made available through offers by letter, telephone, Internet or any other means.
Additional Cards: The Holder may request additional Cards under his account to be used by those other persons designated by the Holder,
in which case the Holder is always jointly and severally responsible for payment in full of all purchases and cash advances m ade through the
use of these additional Cards and the corresponding Interest Charges. If the Holder requests an additional Card, he will pay the Bank an
additional non-refundable Annual fee of $12. There will be no charge for additional Cards in the case of the Card that the Bank has in
promotion from time to time. When the additional Card fee does not apply, or is reduced, this will be made available through offers made by
letter, telephone, Internet or any other means.
MONTHLY ACCOUNT STATEMENT: Every month the Bank will send the Holder an Account Statement at the end of each billing period
which shall indicate, as applicable, the following items: Previous Balance, Payments and Credits, Debits, Purchases of Goods and Services
and Cash Advances during the period in question, the Interest Charges, the Percentage Rate, expressed monthly and annually, the closing
date of the billing period, the Average Daily Balance, the New Balance Total, the minimum payment, the due date of said payment, Notice
about Late Payment, Notice about Minimum Payment, reference on Credit counseling and Sections of Charges and Interest Collected during
the year, among other items. The Holder shall notify in writing to the Bank any error in the monthly Account Statement within sixty (60) days
following the date on which the statement is issued.
OTHER CHARGES: Returned Checks Charge - A charge of $10 will be added to the existing purchases balance for each payment made to
your Credit Card by a check returned for the following reasons: not available or non-collected funds, insufficient funds or any other reason why
the check can not be processed. Late Charges - an amount equal to the minimum payment up to a maximum of $38 will be added to the
existing purchases balance for each billing period when the minimum payment is not made at the due date. Cash Advance Fee - a charge
equal to 2% of the amount of the cash advance is added (minimum charge: $2; maximum: $10) for each advance retrieved either via
withdrawal in automatic teller machines or branch offices or through a convenience check (Bankcard check) or a transfer balance.
JOINT ACCOUNTS: Joint account holders are jointly and severally responsible for all purchases and cash advances made under the credit
plan. The Bank may require the appearance and signature of both to process certain instructions or requests that include, but are not limited to
(1) request for increase or decrease in the credit line, (2) issuance of additional Cards, and (3) change in the address to which the account
statement of the credit plan is sent. Both agree to release and indemnify the Bank from all liability for damages, losses or expenses arising as
a result of any action taken by the Bank in compliance with the instructions given by any of the Holders.
NON-COMPLIANCE: In the event of insolvency, bankruptcy, or death of the Holder, or if he ceases to satisfy any obligation with the Bank
under this Agreement, the total debt of the Holder to the Bank shall be, at the sole discretion of the Bank, due immediately and shall be
payable according to the pertinent provisions of the current laws and regulations. If such non-compliance arises by reason of failure to comply
with the payments required under the provisions of this Agreement, any debt will be due under any of the following conditions:
• If the debtor defaults on the payment for three consecutive terms.
• If the debtor defaults on the payment of one or more installments and on two or more occasions had defaulted in paying two or more
consecutive terms.
• If the debtor makes a partial payment of an overdue installment and makes three consecutive payments later but still does not pay the
remaining balance of the partial payment due.

MINIMUM PAYMENT: The holder may pay the New Balance total in it’s entirely or in monthly installments. If payment is made in monthly
installments, the Minimum Payment will be:
If the balance due is:

Minimum Payment will be:

$ 0.01 to $ 9.99

New balance or accrued interest at the close of the billing
cycle, whichever is greater

$ 10.00 to $600.00

$10.00 or accrued interest at the close of the billing cycle,
whichever is greater

$600.01 onwards

1/60 or accrued interest at the close of the billing cycle,
whichever is greater

In addition, the minimum monthly payment shall include the total amount in excess of your authorized credit limit. The holder may pay at any
time the New Balance Total or any part of this that is greater than the required minimum monthly payment.
APPLICATION OF PAYMENTS: If the Holder pays the minimum payment required in the monthly account statement, the payment will be
applied as follows: first to Interest Charges, and the remainder will be applied proportionately to amount owed by concept of goods and
services and cash advances, in accordance with the New Balance that each one of these headings will yield on the billing date of the monthly
account statement. If the Holder pays an amount in excess of the required minimum payment, it may stipulate in writing at the time of making
the payment that the excess be applied to cash advances and goods and services, or be distributed proportionally. In the absence of such a
declaration, the excess shall be applied to the debt with the highest rate of Interest Charges.
APPLICATION OF PAYMENTS THE SAME DAY: The Bank will credit the payment made by the Holder the same day it is made: (a) in cash
or in check through one of the Bank branch offices, prior to the closing time from Monday through Friday; (b) electronically before 5:00 p.m.
Monday through Friday; (c) by mail together with the payment coupon to the address listed on the account statement of the Holder. If the
payment is received by the Bank on weekend or holiday, the payment will be credited to the account the next business day. In case of
payments received by check the Bank shall defer the availability of funds equivalent to the amount of the payment, for a period of up to five (5)
business days. This will not entail additional charges to your account for Interest Charges.
CURRENCY CONVERSION CHARGES: Your statement will reflect in US dollars any transaction in foreign currency. The process of foreign
currency conversion to U.S. dollars shall be made by VISA International (jointly, the "Associations" or individually, the "Association"),
depending on your Card, using:
(A) An exchange rate selected by the applicable Association from the different rates available in the foreign exchange market during the date
in which your transaction is processed. The exchange rate used by the Association to those effects could be different from the rate received by
the applicable Association, or (B) the exchange rate decreed by the government for the date on which your transaction is processed. VISA
International will charge a fee for currency conversion of 1% of the transaction amount made in foreign currency.
DENIAL OF THE CARD: The Bank will not be liable if a purchase or cash advance or a balance transfer is not authorized by the Bank or a
third party even in the event of the Holder having available credit. The Bank may limit the number of purchases or cash advances approved
during one day. If the Bank detects some unusual or suspicious activity on the account, the Bank can temporarily suspend the credit until the
legitimacy of the transaction is verified. The Bank could temporarily suspend the credit, if the Holder has any existing debt with the Bank that is
in arrears. The Bank could approve purchases or cash advances exceeding the credit limit without renouncing its rights under this Agreement.
The Holder acknowledges and agrees that the Bank shall have no liability or obligation for communications, acts or omissions of the
establishments including their refusal to accept the Card, as well as for defects, quality, weight, quantity or any other aspect relating to the
delivery or provision of the goods and/or services that are purchased or obtained through the use of the Card.
LOST OR STOLEN CARD: If the Card is misplaced or stolen or the Holder suspects that someone could use it without his permission, the
Holder shall immediately notify the Bank by calling (787) 281-2000 or 1-800-726-8263, 24 hours, and complete and submit those forms or
reports required by the Bank. The Holder is not liable for fraudulent transactions that occur in the event of loss, theft or unauthorized use.
AMENDMENTS: As required by law, this Agreement includes the disclosures in terms and conditions of your Credit Card. The Bank cannot
guarantee that the terms and conditions of your Credit Card are unchanged. They can change in accordance to the applicable laws and
regulations; also, changes based on your credit history, market conditions, and business strategies and for any other reason, may occur. If any
changes occur, they will be notified in accordance with the applicable laws and regulations. If any change occurs, they will be notified within
45 days before the change effective date in conformity with applicable laws and regulations. If these changes are not addressed in any law or
regulation, they will be notified 10 days prior to the changes. The Interest Charges, periodical rates and other terms and conditions contained
in this Agreement may be amended by the Bank after having elapsed 12 months from opening the account. Any amendment regarding
Interest Charges shall apply to new purchases of goods and services and cash advances that originate as of the effective date of the change,
as permitted by laws and regulations. If the Holder does not agree with the notified amendments and wishes to terminate the Agreement, he
must notify the Bank in writing of his decision and return the Card cut in half before the effective date of the notified changes and will continue
to pay the balances owed under the account, in accordance with the terms and conditions previously in effect. Any change in the Interest
Charges that occur on or before the date that the requested credit was approved shall be notified through a notification accompanied with the
Card to the Holder, who, through the use of the Card confirms his acceptance of the change.
CANCELLATION: The Card is property of the Bank and the bank may cancel it at any time without prior notice to the Holder, who is obliged to
return any Card issued, at the request of the Bank. If you do not agree to the terms of this Agreement, you may cancel it at any time by giving
written notice to the Bank to these effects,. The notification of cancellation should be send to: Banco Santander Puerto Rico P.O. Box 362589
San Juan, PR 00936-2589 including the Card cut in half. You will remain responsible for the payment of any balance owed at the time of
cancellation. If at the time of cancellation you have an outstanding balance with a special offer, the regular terms in effect at the time will apply
to your outstanding balance.
You may use your card only for personal, family or household purposes. You may not use your card for illegal purposes or for internet
gambling (even if legal). However, you are still responsible for any transactions that you enter into, even if in violation of law or this Agreement.
You must take reasonable steps to prevent unauthorized use of your Account. Subject to applicable law we may cancel or convert your
Account to any of our other revolving accounts.
MISCELLANEOUS PROVISIONS: The Bank is authorized by the Holder to investigate the Holder’s credit references and reserves the right to
issue or not issue, renew or not renew the Card depending on the Holder’s ability to pay and credit references. Failure by the Bank to exercise
any right under this Agreement shall not constitute a waiver of such right. If any provision of this Agreement is declared invalid by a Court or
ceases to have effect by legislative or regulatory provision, the remaining provisions of this Agreement will continue in force. The Holder will
establish a secret number to be able to access cash advances against his account through Automatic Teller Machines. The Holder undertakes
and agrees to maintain the confidentiality of such secret number to avoid the use of the Card by unauthorized persons, and agrees not to
disclose or have the secret number written next to the Card. The limit of cash advances will be established by the Bank from time to time.
When the Card is used outside Puerto Rico or in another associated bank, the limit established will be governed by the associated bank to
which the Card is presented. The Holder may instruct the Bank to debit his Bank deposit accounts for any amount to cover payments due or
the total balance of the debt. The Bank, at its sole discretion, may not authorize cash advances and/or purchases of goods and services when
the account is in arrears for thirty days or more and/or when the outstanding balance is above the limit of the credit granted.
The Holder is not obliged to accept the Card nor will be responsible for any charges unless he chooses to accept it by using it. If the Holder
does not accept the Card, he shall notify the Bank within fifteen (15) days after receiving this Agreement without having used the Card. The
use of the Card by the Holder or any person authorized by the latter constitutes acceptance by the Holder of each and every one of the terms,
clauses and conditions disclosed under this Agreement. This Agreement shall be governed by and construed under the laws and regulations
of the Commonwealth of Puerto Rico and the applicable federal laws and regulations. In case the Holder is offered any insurance for life
protection, disability or involuntary unemployment or some other coverage by the Bank or any third party (whether or not a Bank affiliate) such
insurance is optional and is not a condition for extending credit.

CASH BACK PROGRAM
With the "Cash Back" program, you will earn 1% of the total of net purchases (total purchases less returns) made during your billing cycle.
The following transactions will not be considered for Cash Back: convenience checks, cash advances, annual card fee payment, fees and
commissions, taxes, interest charges, account credits, casino transactions, travelers checks, balance transfers (except in special promotions
in which specifically the Bank announce this benefit), payments through E-banking or any other transaction the Bank determines at its sole
discretion to be equivalent to a cash advance. Cash Back, will be provided if the account is current and must be open (active) the day the
account was credited with the percent of Cash Back. Cash Back is calculated by adding the total amount of net purchases during the month’s
billing cycle and the result is multiplied by the percent of Cash Back. No accumulations of Cash Back will be made retroactively. To calculate
and credit the Cash Back, the Bank will use the result of the calculation above in dollars. The total Cash Back accumulated will be rounded up
to the nearest whole number. In your monthly statement you will automatically receive a credit with the amount of Cash Back accumulated
during that period. If you make a return of purchases, this amount will be subtracted from the total amount of Cash Back accumulated in the
period in which such return of merchandise is performed. The percent of Cash Back that is subtracted shall be calculated based on the offer of
current accumulation that has the account at the time of purchase and not at the time of the return of the acquired. If your account is in arrears
of 30 days or more, the Bank will retain the Cash Back until the account is current or complete condition and will be credited in the next billing
cycle. The Cash Back program is subject to change or cancellation at any time at the discretion of the Bank. The customer is responsible for
any federal or state taxes in relation to the credit through the Cash Back program, including and not limited to: excise taxes or merchandise
taxes. Disputes where the outcome of the investigation is in favor of the customer, quantities or purchases made in violation of law or this
agreement will not be included in the calculation of the Cash Back.
The involvement of the client in the Cash Back program can be suspended by the Bank for a reason the Bank considers are related to fraud
until the dispute is resolved satisfactorily. The Bank reserves the right to deduct incorrectly amounts credited to the customer for fraudulent
transactions and also reserves the right to award additional benefits under special conditions during promotional campaigns, where additional
terms and conditions may apply and will be announced in a timely manner to cardholders.
The Bank encourages the frequent use of the credit card, by granting the benefit of one percent return on purchases to the primary cardholder.
These benefits will be awarded to the primary cardholder, disregarding the fact that purchases were made by the primary cardholder or any
additional cardholder and the type of currency in which such purchases were made. The duration of this program is undefined. However, the
terms and conditions may be amended at any time, subject to the Bank’s policies. The terms presented in this Agreement shall be effective,
until there is a new amendment which substitutes it. Amendments to the Cash Back program: The Bank reserves the right to change the
terms and conditions of the program, its provisions, benefits, validity of Cash Back, maximum Cash Back per month or annual accumulation
and special offers, at any time, but will make the notifications for the cardholder, as set out in the amendment clause. The Bank reserves the
right to terminate the program at any time, by sending a written notice to the cardholder 45 days calendar prior to the effective date of the
termination. There are no restrictions on the amount of Cash Back you can earn. The Bank reserves the right to limit the amount of Cash Back
you can earn, any changes occur, this shall be notified at least 45 days prior to the effectiveness of the change, in accordance with the laws
and regulations, if any. The Bank reserves the right to increase or decrease by promotions the percent of Cash Back. The Accumulated Cash
Back may not be object of purchase, sale, transaction or negotiation, cannot be used in combination with Cash Back from other accounts of
different customers.

BILLING RIGHTS: This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
Notification to the Bank in case of errors or doubts on the account statement: the Holder shall notify in writing to the Bank if he believes
that the account statement is incorrect or needs more information about a transaction in the statement. The Holder must write, on a separate
sheet, at the address indicated in the account statement, as soon as possible. This notification must be no later than sixty (60) days since the
Bank sent the first statement on which the error or problem appeared. The Holder may call the Bank by telephone to 787-281-2000, but this
way your rights do not prevail. The Holder must send a letter to Banco Santander P.O. Box 362589, San Juan, PR 00936-2589 with the
following information: name and surname, account number, amount of money of the alleged error, description of the error. If you need more
information, you must include a description of the item on which you have any questions. If the Holder has authorized the Bank to pay the
account statement automatically from his savings or checking account, the Holder can stop the payment of any amount he understands that it
is incorrect.
RIGHTS AND RESPONSIBILITIES OF THE BANK AFTER HAVING RECEIVED THE WRITTEN NOTIFICATION FROM THE HOLDER: the
Bank must acknowledge receipt of the letter within thirty (30) days, unless the error has been corrected within this period. After receiving his
letter, within a period equivalent to two billing cycles, but no more than ninety (90) days, the Bank must correct the error or explain to you why
we understand that the invoice is correct. After receiving the written notification, the Bank should not try to collect any amount that the Holder
has questioned, nor report him as delinquent. The Bank may continue to bill the amount that the Holder has questioned, including Interest
Charges and may apply any amount due to his credit line. The Holder does not have to pay any amount in dispute while the Bank is
investigating, but the Holder will be obligated to pay the parts of his invoice that are not in dispute. If the Bank determines that there was an
error in the invoice, the Holder will not have to pay Interest Charges related to the portion of the invoice that is in dispute. If it is determined
that there was no error on the invoice, the Holder shall pay Interest Charges and update any payment in the amount of the dispute. In any
case, the Bank will send you an account statement for the unpaid amount and the due date. If the Holder does not pay the amount that the
Bank believes it owes, the Bank can report the case as delinquent. However, if the Holder is not satisfied with the Bank’s explanation, and he
writes within the next ten (10) days informing that he still refuses to pay the Bank, the Bank shall inform any organization to whom he has been
reported as delinquent that the Holder has a dispute regarding the invoice. Also, the Bank must inform the Holder on the identity of any
organization he has been reported to, that there has been a resolution once the matter has been resolved. If these rules are not followed, the
Bank may not charge the first $50 of the amount in dispute, even if it is determined that the invoice was correct.
SPECIAL RULES ON PURCHASES WITH CREDIT CARDS: if there are problems with the quality of the goods or services purchased with
Credit Cards and you have tried in good faith to correct the problem with the vendor, you may have the right to not pay the remaining debt
balance related to those products or services. There are two limitations on this right: a) the purchase must have been made in your state of
residence ("home state"), or if you are not in your state of residence, within 100 miles of your mailing address, and (b) the purchase price must
be greater than $50. These limitations do not apply to the vendor where you purchased the goods or services if this is owned or controlled by
the Bank or if the Bank sent you a promotional notice or advertising of their goods or services.
Banco Santander Puerto Rico-Credit Cards Division-PO BOX 362589 SAN JUAN, PR 00936-2589
(REV 03/18)

Interest Rates and Interest Charges
Annual percentage rate
(APR) on Purchases
Annual percentage rate
(APR) on Balance
Transfer
Annual percentage rate
(APR) in cash advances

Penalty APR and When
it Applies

Paying Interest

For Credit Card tips from
Consumer Financial
Protection Bureau

0% introductory APR for the first 6 months.
After that, your APR will be from 9.95%

25.95%

to
, based on your
credit history.
0% introductory APR for the first 6 months.
After that, your APR will be from 9.95% to 25.95%, based on your credit
history.
22.95% to 25.95%, at the time of opening the account, based on your credit
history.
29.99% APR
It applies to account balances, including new purchases, cash advances and
transferred balances if the following condition occurs:
a. The minimum payment is not received for 2 consecutive billing periods.
How long will the penalty APR apply?
If your annual percentage rate increases for this reason the non-compliance
rate will apply until you have made at least six (6) consecutive minimum
payments on or before its due date.
Your due date is at least 27 to 32 days after the close of each billing cycle. You
will not be charged interest from the time you purchased goods or services, if
you pay your full account balance by the Payment Due Date. In the event you
don’t pay the full account balance, while in the Grace Period, you will not pay
interest on the amount paid for that cycle. On subsequent cycles you will not
have a Grace Period until you pay your full account balance on time. Amounts
related to certain offers will not be taken into consideration in determining the
Grace Period, please refer to the offer terms and conditions. Interest on cash
advances, balance transfers to other institutions and convenience checks will
be imposed from the date that the transaction occurred and will continue to
accrue until paid in full.
For information on factors to consider when ordering or using credit
cards, visit the Consumer Financial Protection Bureau on its Website at:
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0 for the first 12 months, then $24

Additional Card Annual Fee

$0 Additional Card for the first 12 months, then $12

Transactions Fees
 Cash Advance

2% of the advance; minimum $2, maximum $10



Balance Transfers

2% of the advance; minimum $2, maximum $10



Currency conversion

1% of the transaction amount made in a foreign currency.

Penalty Charges
 Late Payment
 Returned Payment

Up to a maximum of $38
$10

How We Will Calculate Your Balance: We use the daily balance method (including new transactions).
Loss of Introductory APR: We may end your introductory APR and apply the Purchases Standard APR if you close your account or if
you miss a payment
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Banco Santander Puerto Rico, Member FDIC. Lic. OCIF IB-17.

.

